                                                                        

                                                                    
                                                                            1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                                            PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com




                                                               MANAGEMENT LETTER
                                                                  AUD-FM-13-11

To the Commissioner of the International Boundary and Water Commission, United States and
Mexico, U.S. Section, and the Inspector General of the U.S. Department of State:

Kearney & Company, P.C. (referred to as “we” hereafter), has audited the consolidated financial
statements of the International Boundary and Water Commission, United States and Mexico,
U.S. Section (USIBWC), as of and for the year ended September 30, 2012, and has issued our
report thereon dated December 11, 2012.1 In planning and performing our audit of USIBWC’s
consolidated financial statements, we considered USIBWC’s internal control over financial
reporting and compliance in order to determine our auditing procedures for the purpose of
expressing an opinion on the consolidated financial statements and not to provide assurance on
internal control. Accordingly, we do not express an opinion on the effectiveness of USIBWC’s
internal control related to financial reporting and compliance. We have not considered
USIBWC’s internal control since the date of our report on the FY 2012 financial statements.

During our audit, we noted certain matters related to internal control over financial reporting and
compliance that we considered to be significant deficiencies under standards established by the
American Institute of Certified Public Accountants. A significant deficiency is a deficiency, or
combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance.

Our report on internal control described three matters related to internal control that we
considered to be significant deficiencies: property and equipment, budgetary accounting, and
information technology.

Our procedures were designed primarily to enable us to form an opinion on USIBWC’s
consolidated financial statements and therefore may not have identified all internal control
weaknesses that may exist. However, we would like to use the knowledge we gained during our
audit of the financial statements to provide comments and suggestions that we hope can be useful
to USIBWC.

Although not considered to be significant deficiencies, we noted certain other matters involving
internal control and operations. These findings and recommendations, which are summarized in
Appendix A, are intended to assist USIBWC in improving internal control or to result in




                                                            
1
 Independent Auditor’s Report on the International Boundary and Water Commission, United States and Mexico,
U.S. Section, 2012 Financial Statements (AUD-FM-13-10, Dec. 2012).
other operating efficiencies. These findings and recommendations have been discussed with
appropriate USIBWC officials. Comments from USIBWC’s management on this report are
presented as Appendix B.

We appreciate the courteous and professional assistance provided by USIBWC personnel during
our audit. We would be pleased to discuss these comments and recommendations with
USIBWC.

This letter is intended solely for the information and use of USIBWC management, those
charged with governance, and others within USIBWC and the Office of Inspector General and is
not intended to be and should not be used by anyone other than these specified parties.




March 25, 2013
Alexandria, Virginia




                                              2
                                                                                  Appendix A

                        MANAGEMENT LETTER COMMENTS

I.       Financial Reporting

Analysis and Review of Financial Data

Periodic reviews and comparative analyses of financial data are effective tools used by many
organizations to identify abnormalities and potential misstatements in accounting records.
Properly designed and executed analytical comparisons help management identify significant
variances in account balances and unanticipated events. To ensure that the reviews are effective,
the organization must follow up on and address the causes of significant variances, unexpected
trends, or abnormalities that are identified. Routine financial reviews are especially useful for
decentralized organizations with multiple field offices and locations.

Kearney & Company, P.C. (referred to as “we” hereafter), found that the International Boundary
and Water Commission, United States and Mexico, U.S. Section (USIBWC), had not performed
standardized, comparative analyses of financial data and financial statements. For example,
USIBWC did not perform an internal analysis of significant line item fluctuations in the interim
financial statements. In addition, USIBWC did not perform an analysis of financial data at the
cost center level, such as expense activity and fluctuations.

We found that USIBWC did not have procedures for performing routine analytical comparisons
of accounts and fund groups, which should be performed at least quarterly. In addition,
USIBWC’s Finance Division had limited resources, which would make developing and
implementing internal controls a challenge.

Without effective routine financial reviews, material errors and anomalies in the financial
statements may not be identified and corrected. In addition, circumstances of potential interest to
management, such as unexpected increases in expenditures, may go unnoticed.

Recommendation:

We recommend that USIBWC

        Develop standard operating procedures for performing periodic comparative reviews of
         financial data that it determines are cost beneficial.
        Establish standard thresholds for dollar (absolute) and percentage (relative) variances that
         require investigation.
        Mandate routine timelines for the periodic reviews.
        Conduct and document supervisory review of the analyses to ensure completeness,
         accuracy, and timeliness.

Presentation of the Statement of Net Cost

Office of Management and Budget (OMB) Circular A-136, Financial Reporting Requirements,
defines the form and content for a Federal performance and accountability report or agency


                                                  1
                                                                                Appendix A

financial report. The Circular establishes the components of an agency’s annual financial
statements, including instructions for how information should be presented for each of the basic
statements. The major provisions of the Circular apply to each Executive Branch department,
agency, and other entity that is required to prepare audited financial statements. USIBWC is not
required to prepare audited financial statements, and therefore, the provisions of OMB Circular
A-136 do not apply to USIBWC. However, USIBWC prepares audited financial statements and
has elected to comply with the Circular. USIBWC states in Note 1 of its financial statements and
accompanying financial disclosures that the financial statements are presented in accordance
with the requirements of OMB Circular A-136.

We reviewed USIBWC’s interim financial statements at June 30, 2012. We found that USIBWC
did not present its Statement of Net Cost (SNC) in accordance with the requirements of OMB
Circular A-136. USIBWC presented its SNC by expenditure and revenue streams, including a
breakout of Intragovernmental balances, rather than by the major programs related to USIBWC’s
major goals as required. As a result of our interim finding, USIBWC modified the SNC
presentation in the year-end financial statements by adding totals for mission-level expenses and
revenue. Although the modified format complied with OMB Circular A-136 requirements,
refinements could be made to the SNC presentation to improve information reported for
USIBWC’s major programs and strategic goals.

We found that USIBWC did not have a control in place to ensure that all financial information
and disclosures in its annual financial statements were in compliance with the requirements of
OMB Circular A-136. Further, USIBWC did not have a cost accounting methodology in place
to track costs and revenues by major program or strategic goal.

Without a breakout of net cost by major goal, users of USIBWC’s financial statements would not
be able to obtain the necessary information to analyze and interpret the total cost of each of
USIBWC’s major programs against the output of each program. This information is essential for
determining whether programs are cost effective.

Recommendation:

We recommend that USIBWC

       Revise the presentation of its Statement of Net Cost to show the net cost of operations by
        the major programs related to its major goals.
       Implement a cost accounting methodology to track and monitor costs and revenues by
        major program.
       Design and implement an internal control, such as a Circular A-136 checklist, to verify
        that its financial statements comply with all presentation requirements.
 




                                                 2
                                                                                Appendix A

II.       Compliance With Laws and Regulations

Vendor Payments

USIBWC is subject to the requirement of the Prompt Payment Act (PPA). The PPA generally
requires that Federal agencies pay commercial vendors within 30 days of the receipt of a proper
invoice. When timely payments are not made, the PPA requires that agencies calculate and
include interest penalties in the vendor payment. Interest penalties represent additional and
avoidable costs that decrease the amount of funds available for other needs.

We tested expenses and identified untimely payments of invoices and incorrect payments of
interest. Of a sample of 33 items, we identified two invoices (6 percent) that were not paid
within 30 days as required. For these two exceptions, we found that USIBWC had not paid
interest as required by the PPA.

Delays in processing necessary contract modifications caused two invoices to be processed in an
untimely manner. After the contract modifications were processed, the proper invoice receipt
dates were not entered into the accounting system, which prevented the system from
automatically calculating and paying the required interest amount.

Additionally, USIBWC did not have a process to prioritize the review of aged invoices that were
at risk for requiring PPA interest penalties.

By not paying all invoices within 30 days, USIBWC incurred unnecessary interest penalties.
Specifically, USIBWC reported approximately $4,000 of PPA interest expense as of June 30,
2012. Because the proper amount of interest penalties was not remitted to vendors as required,
USIBWC was not in compliance with the PPA.

Recommendation:

We recommend that USIBWC strengthen its controls to ensure that invoices are paid in a timely
manner. Specifically, USIBWC should

         Implement procedures for the Finance Division to identify, monitor, and follow up on
          invoices that are not certified for payment within 7 days.
         Develop a process to ensure that the dates entered in required data fields in the
          accounting system are accurate.
         Utilize an accounts payable subsidiary ledger to track and prioritize amounts owed,
          including the aging of invoices, for each vendor.




                                                 3
KEARNEY&
COMPANY
                                                                                                       Appendix B




                        INTERNATIONAL BOUNDARY AND WATER COMMISSION
                                  UN ITED STATES AND MEXICO

                                                 March 6, 2013


     Mr. !-Iarold W. Geisel
     United States Department of State
     Deputy Inspector General
     Office of Inspector General
     Washington, D. C. 20520

     Subject: Management Letter relatcd to the Audit of the United States Section, International Boundary
     and Water Conunission, 2012 and 2011 Financial Statements

     Dear Mr. Geisel:

     We received and have reviewed the draft Management Letter of the United States Section,
     International Boundary and Water Commission (IB WC), 20 12 and 20 11 financial statements. Thank
     you for the opportunity to comment on your audit recommendations.

     Attached please find O Uf responses to each of the recommendations as reported in the draft
     Management Letter. Please advise if you have any questions or if we may be of any assistance.

                                                  Sincerely,




                                             ~~   Commissioner




            The Commoos BuildingC, Suite 100 . 4171 N. Mesa Street . El Paso, Texas 79902-1441
                           l


                      (915) 832-4100 . Fax: (915) 832-4190 . http://www.ibwc.gov




                                                        1
KEARNEY&
COMPANY


                                                 Management Letter
                                                 AUD-FM-J3-XX

     I. Financial Reporting

     Analysis and Review of Fi nanci al Data

     Periodic reviews and comparative analyses of financial data arc efTective tools used by many organi zations
     to identify abnormalities and potential misstatements in accounting records. Properly designed and
     executed analytical comparisons help management iden tify significant variances in account balances and
     unanticipated events. To ensure that the reviews arc effective, the organization must follow up on and
     address the causes of significant variances, unexpected trends, or abnomlalitics thai are identified. Routine
     financial reviews arc especially useful for decentral ized organizations with multiple field offiecs and
     locations.

     Kearney & Company, P.c. (rcfcrrcd to as "we" hereafter), found that the International Boundary and Watcr
     Commission, Unitcd States and Mexico, U.S. Section (USlBWC), had not performed standardized ,
     comparative analyses of financial data and financ ial statements. For example, USIBWC did not perform an
     internal analysis of significant line item fluctuations in the interim financial statements. In addition,
     USIBWC did not perform an analysis of financial data at the cost center level , such as expense activity and
     fluctuations .

     We found that USIBWC did not have procedures for performing routine analytical comparisons of
     accounts and fund groups, which should be performed at least quarterly. [n addition, USIBWC' s Finance
     Division had limited resources, which would make developing and implementing internal controls a
     challenge.
     Without effective routine financial reviews, materia l errors and anomalies in the financial statements may
     not be identified and corrected. In addition, circum stances of potential interest to managemcnt, such as
     unexpected illcreases in expenditures, may go unnoticed .

     Recommendation:

     We recommend that USIBWC

                 Develop standard operating procedures fo r perfomling periodic comparative reviews of
                 financial data that it detennines are cost beneficial.

                 Establish standard thresholds for dollar (absolute) and percentage (relative) variances that
                 require investigation.

                 Mandate routine timclincs for the periodic reviews.

                 Co nduct and document supervisory review of the anal yses to ensu re compl eteness, accuracy,
                 and timcliness .

     Response: USIBWC agrees with the recommendation . The Accounting Officer is developing reporting
     requirements that will satisfy this finding and recommendations.




                                                            2
KEARNEY&
COMPANY


     11rcscntatio n of the Statement of Net Cost

     OHicc of Management and Budget (OM B) Ci rcular A-1 36, Financial Reporting Requirements, defines the
     fOfm and content for a Federal performance and accountability report or agency Appendix A 2 financial
     report. The Ci rcular establishes the components or an agency's annual financial statements, including
     instructions for how infonnation shou ld be presented for each ortbe basic statements. The major provisions
     orthe Circular apply to each Executive Branch department , agency, and other entity Ihat is required 10
     prepare audited financ ial statements. USIBWC is not required to prepare aud ited financial statements, and
     therefore, the provisions arOMB Circular A-136 do not apply to USIBWC. However, US IBWC prcpares
     audited financial statements and has elected to comply with the Circular. USlBWC states in Note 1 of its
     financial statements and accompanying financial disclosures that the financial statements arc presented in
     accordancc with thc rcquiremcnts ofOMB Circular A-136.

     We reviewcd USIBWC's interim financial statcments at June 30, 2012. We found that USIBWC did not
     present its Statcmcnt of et Cost (S IC) in accordance with thc requircments ofOMI3 Ci rcular A-136.
     USIBWC presented its SNC by cxpenditure and rcvenuc streams, including a breakout of Intra-
     governmental balances, rather than by the major programs related to USIBWC's major goa ls as required.
     As a result of our interim finding, USIBWC modified the SNC presentation in the yea r-end financial
     statelllents by adding tota ls for mission-level expenses and revenue. Although the modified format
     comp lied with OMB Circular A-136 requirements, refinements could be made to the SNC presentation to
     improve information reported for USIBWC's maj or programs and strategic goals.

     We found that USlBWC did not have a cont rol in place to ensure that all financial information and
     disclosures in its annual financial sta tements were in com pliance with the requirements ofOMB Circular
     A- 136. Further, USlBWC did not have a cost accounti ng mcthodology in place to track costs and revenues
     by major program or strategic goal.

     Without a breakout of net cost by major goal, users of USIBWC's financial statements would not be able to
     obtain the necessary information to analyze and in terpret the total cost of each of USIBWC's major
     programs against the output of each program. This information is essential for detennining whether
     programs arc cost efTcetivc.

     Recommcndation:

     We rccommend that US LBWC
              Revise the prcsentation of its Statement of Nct Cost to show the net cost of opcrat ions by the
              major programs related to its major goals.
              Implemcnt a cost accounting mcthodology to track and monitor costs and revenues by major
              program.
              Design and implement an intcrnal control, such as a Circular A-136 checklist, to vcrify that its
              financial statemcnts comply with all prese nl<ltion requirements .

     US IBWC R esponse: USIBWC agrees with the finding and the recommendations. The CAO and
     Accounting Officcr arc conducting assessments of the financial structures , to dctcnnine whethcr it is
     feasible to implement changcs to capture and report net cost and track and monitors costs and revenues by
     major program. An internal control utilizing Circular A~ 136 checklist w ill bc implemented to verify that
     our financial statements in fact comply with all presentation requiremcnts.




                                                           3
KEARNEY&
COMPANY



     II. Com pliance With Laws and Regulations

     Vendor Payments

     USlBWC is subject to the requirement of the Prompt Payment Act (PPA). The PPA generally requires that
     Federal agencies pay commercial vendors within 30 days orthe receipt ofa proper invoice. When timely
     payments arc not made, the PPA requires that agencies calculate and include interest penalties in the vendor
     payment. Interest penalties represent additional and avoidable costs that decrease the amount of funds
     available for other needs.

     We tested expenses and identified untimely payments of invoices and incorrect payments of interest. Ora
     sample of33 items, we identified two invoices (6 percent) that were not paid within 30 days as required.
     For these two exceptions, we found that USIBWC had not paid interest as required by the PPA.
     Delays in processing necessary contract modifications caused two invoices to be processed in an untimely
     manner. After the contract modifications were processed, the proper invoice receipt dates were not entered
     into the accounting system, which prevented the systcm from automatically calculating and paying the
     required interest amount.

     Add itionall y, USIBWC did not have a process to prioritize the rcview ofagcd invoices that were at risk for
     requiring PPA intcrest penalties.

     By no! paying all invoices within 30 days, USIBWC incurred unnecessary interest penalties. Specifically,
     USIBWC reported approximately $4,000 ofPPA interest expense as of June 30, 2012 . Bccause the proper
     amount of interest penalties was not remitted to vcndors as required, USIBWC was not in compliance with
     the PPA.

     Recommendation:

     We recommend that USIBWC strengthen its controls to ensure that invoices arc paid in a timely manner.

     Specifically, USIBWC should

                Implement procedurcs for the Financc Division to identify, monitor, and follow up on invoices
                that arc not certified for payment within 7 days.
                Develop a process to ensure that the dates entered in required data fields in the accounting
                system arc accurate .
                Utilize an accounts payable subsidiary lcdger to track and prioritize amounts owed, including
                the aging of invoices, for each vendor.

     Response: The USIBWC agrees with the finding and recommendations. The Finance and Accounting
     Division is in the process ofimplcmenting controls that will identify invoices that arc not certified for
     payment within 7 days and that will ensure the dates en tered in required data fields in the accounting
     system arc accurate . In addition, this section will track and prioritize amounts owed by vendor as
     recommended.




                                                            4
